     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T 41
                                                                          Atlanta, GA 30303

June 30, 2010

Report Number: A-04-09-03526

Ms. Virginia Trotter Betts
Commissioner
Tennessee Department of Mental Health and Developmental Disabilities
425 Fifth Avenue North
3rd Floor, Cordell Hull Building
Nashville, TN 37243

Dear Ms. Trotter Betts:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Tennessee’s Substance Abuse Prevention and
Treatment Block Grants for Federal Fiscal Years 2003 Through 2008 . We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG pos t its publicly
available reports on the OIG Web site. Accordingly, th is report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or conta ct
John Drake, Audit Manager, at (404) 562 -7755 or through email at John.Drake@oig.hhs.gov. Please
refer to report number A-04-09-03526 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Virginia Trotter Betts


Direct Reply to HHS Action Official :

Dan Spears, CPA
Financial Advisory Services Officer
Division of Grants Management
Substance Abuse and Mental Health Services Administration
1 Choke Cherry Road, Suite 7-1091
Rockville, MD 20857
  Department of Health & Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





REVIEW OF TENNESSEE’S SUBSTANCE 

ABUSE PREVENTION AND TREATMENT 

BLOCK GRANTS FOR FEDERAL FISCAL 

    YEARS 2003 THROUGH 2008 





                        Daniel R. Levinson

                         Inspector General 


                            June 2010 

                          A-04-09-03526 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY



BACKGROUND

Substance Abuse and Mental Health Services Administration (SAMHSA) block grants are
federally awarded funds allocated to establish and implement comprehensive programs for
individuals with substance abuse or mental health issues. Pursuant to P.L. No.102-321, these
grants provide funding to States for planning, carrying out, and evaluating activities to prevent
and treat substance abuse and other related activities. The grants are awarded subject to certain
requirements and restrictions, including the requirement that States maintain a certain level of
State expenditures (referred to as maintenance of effort or MOE), and that expenditures fall
within allotted parameters (referred to as earmarks). The Children’s Health Act of 2000 (P.L.
No. 106-310) amended the Public Health Service Act to allow the Secretary of Health & Human
Services to waive MOE requirements in some circumstances.

States administer the Substance Abuse Prevention and Treatment (Substance Abuse) block
grants subject to the restrictions imposed in the Public Health Service Act (42 USC § 300x) and
implementing regulations found at 45 CFR part 96.

In Tennessee (State), the Department of Mental Health and Developmental Disabilities (State
agency) administers the Substance Abuse block grant. However, prior to February 23, 2007, the
Tennessee Department of Health (DOH) administered the grant. From February to June 2007,
grant administration, including programmatic, fiscal, monitoring, and Federal reporting
responsibilities were transferred from DOH to the State agency.

From October 1, 2003, through September 30, 2008, the State agency and DOH received about
$149 million in SAMHSA substance abuse grant awards. SAMHSA requested this audit as part
of its grants oversight role.

OBJECTIVE

Our objective was to determine whether the State agency had adequate controls over the
expenditure of its Substance Abuse block grant funds.

SUMMARY OF FINDINGS

The State agency’s controls over the expenditure of its Substance Abuse block grant funds were
not always adequate. Specifically, we noted four weaknesses in State agency policies and
procedures involving: (1) Federal reporting, (2) subrecipient monitoring, (3) subrecipient
expenditure approval, and (4) MOE and earmarking.

These weaknesses occurred because the State’s Substance Abuse block grant program
experienced significant changes in fiscal, programmatic, and reporting practices, as well as
significant turnover in personnel, during our audit period.




                                                i
These weaknesses resulted in the State agency not reporting grant expenditures accurately and
timely and not following up and resolving subrecipient monitoring findings timely. These
weaknesses could also have precluded the State agency from ensuring that subrecipient invoices
were adequately reviewed prior to approval and that MOE and earmarking requirements were
met.

RECOMMENDATIONS

We recommend that the State agency:

   		 revise and resubmit its Federal Financial Status Report for the grant period ended 

       September 30, 2008, 


   		 develop and implement improved procedures for preparing its annual Federal Financial
       Status Report accurately and timely,

   		 designate someone as the focal point for ensuring that adequate followup is performed on
       subrecipient responses to monitoring findings and corrective action plans,

   		 develop and implement written policies and procedures that clearly define the roles and
       responsibilities of accounting personnel during the review and approval of subrecipient
       invoices for reimbursement, and

   		 develop and implement written procedures that establish an ongoing monitoring role for
       someone familiar with the grant requirements for MOE and earmarks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described its actions to address the weaknesses that we identified. The State agency’s
comments are included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS



                                                                                                                               Page

INTRODUCTION.............................................................................................................1 


     BACKGROUND ..........................................................................................................1 

       Substance Abuse Prevention and Treatment Block Grants ....................................1 

       Substance Abuse Prevention and Treatment Block Grant Administration 

        in Tennessee.........................................................................................................1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2 

       Objective .................................................................................................................2          

       Scope.......................................................................................................................2


       Methodology ...........................................................................................................2              


FINDINGS AND RECOMMENDATIONS ...................................................................3 


     FEDERAL REPORTING .............................................................................................3 

       Federal Requirements .............................................................................................3 

       State Agency’s and Department of Health’s Federal Reporting .............................4 


     SUBRECIPIENT MONITORING................................................................................5                            

       Federal and State Requirements..............................................................................5                     

       State Agency Oversight of Subrecipients ...............................................................5 


     SUBRECIPIENT EXPENDITURE APPROVAL........................................................6 

       Federal Requirements .............................................................................................6 

       State Agency Procedures for Approving Subrecipient Expenditures .....................7 


     MAINTENANCE OF EFFORT AND EARMARKING .............................................7 

       Federal Requirements .............................................................................................7 

       State Agency Procedures for Monitoring Maintenance of Effort and 

        Earmarking Requirements ....................................................................................8 


     RECOMMENDATIONS ..............................................................................................9                     


     STATE AGENCY COMMENTS................................................................................. 9 


APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Substance Abuse Prevention and Treatment Block Grants

Substance Abuse and Mental Health Services Administration (SAMHSA) block grants are
federally awarded funds allocated to establish and implement comprehensive programs for
individuals with substance abuse or mental health issues. Pursuant to P.L. No. 102-321, these
grants provide funding to States for planning, carrying out, and evaluating activities to prevent
and treat substance abuse and other related activities. The grants are awarded subject to certain
requirements and restrictions, including the requirements that States maintain a certain level of
State expenditures (referred to as maintenance of effort or MOE) and that expenditures fall
within allotted parameters (referred to as earmarks). The Children’s Health Act of 2000 (P.L.
No. 106-310) amended the Public Health Service Act to allow the Secretary of Health & Human
Services to waive MOE requirements in some circumstances.

Substance Abuse Prevention and Treatment block grant (Substance Abuse) funds are allocated to
the States according to a formula legislated by Congress. States may distribute these funds to
cities, counties, or service providers within their jurisdictions based on need. Of the Substance
Abuse funds appropriated to each State annually, Congress specified that each State will expend
not less than 20 percent on programs for individuals who do not require treatment for substance
abuse. These programs should (1) educate and counsel individuals about substance abuse and
(2) provide for activities to reduce the risk of substance abuse. Congress established Substance
Abuse block grant statutory set asides or earmarks targeting special populations, such as services
for women, especially pregnant and postpartum women, their children, and, in certain States, for
HIV screening.

States administer the Substance Abuse block grants subject to the restrictions imposed in the
Public Health Service Act (42 U.S.C. § 300x) and implementing regulations found at 45 CFR
part 96.

SAMHSA requested this audit as part of its grants oversight role.

Substance Abuse Prevention and Treatment Block Grant Administration
in Tennessee

In Tennessee (State), the Department of Mental Health and Developmental Disabilities (State
agency) administers the Substance Abuse block grant. However, prior to February 23, 2007, the
Tennessee Department of Health (DOH) administered the grant. From February to June 2007,
DOH transferred grant administration, including programmatic, fiscal, monitoring, and Federal
reporting responsibilities, to the State agency.

From October 1, 2003, through September 30, 2008, the State agency and DOH received about
$149 million in SAMHSA Substance Abuse grant awards. The State agency and DOH expended




                                                1

$6 million (about 4 percent) of these funds for grant administration. The remainder of the funds
was expended through contracts with subrecipients throughout the State.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency had adequate controls over the
expenditure of its Substance Abuse block grant funds.

Scope

We reviewed the State agency’s fiscal administration of its Substance Abuse grant award funds
related to: (1) Federal reporting, (2) subrecipient monitoring, (3) the expenditure approval
process, and (4) MOE and earmarking. Our review focused on policies and procedures in place
after the State agency assumed control of grant administration in July, 2007. However, in some
cases we reviewed policies and procedures in place prior to this date to obtain an understanding
of DOH’s fiscal administration of the grant.

We performed fieldwork at the State agency, DOH, and the Tennessee State Auditors offices in
Nashville, Tennessee, from January through July 2009.

Methodology

To accomplish our objective, we:

   		 reviewed Federal and State laws, regulations, and guidance related to the administration
       of SAMHSA-funded Substance Abuse block grants;

   		 interviewed officials at the State agency and DOH to identify policies and procedures
       they used in administering the block grant, including their controls over the expenditure
       of grant funds;

   		 reviewed the State’s Federal expenditure reports for the audit period and traced the
       reported amounts to the State’s accounting records, including expenditure reports and
       supporting records maintained by the State agency and DOH;

   		 tested billings from subrecipients to verify that they were for allowed activities, 

       adequately documented, and recorded in the appropriate period; 


   		 analyzed State agency expenditures to verify that it met its required expenditure levels
       (MOE) and adhered to grant limitations (earmarking requirements); and

   		 reviewed State agency subrecipient monitoring procedures and reviewed a judgmental
       sample of 69 subrecipient monitoring reports.



                                                 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s controls over the expenditure of its Substance Abuse block grant funds were
not always adequate. Specifically, we noted four weaknesses in State agency policies and
procedures involving: (1) Federal reporting, (2) subrecipient monitoring, (3) subrecipient
expenditure approval, and (4) MOE and earmarking.

These weaknesses occurred because the State’s Substance Abuse block grant program
experienced significant changes in fiscal, programmatic, and reporting practices, as well as
significant turnover in personnel, during our audit period.

These weaknesses resulted in the State agency not reporting grant expenditures accurately and
timely and not following up and resolving subrecipient monitoring findings timely. These
weaknesses could also have precluded the State agency from ensuring that subrecipient invoices
were adequately reviewed prior to approval and that MOE and earmarking requirements were
met.

FEDERAL REPORTING

Federal Requirements

Block grant recipients are required to submit complete financial data annually. Pursuant to 45
CFR § 96.134(d) the Secretary of Health & Human Services may make a block grant for a fiscal
year only if:

       ...the State involved submits to the Secretary information sufficient for the
       Secretary to make the determination required in paragraph (a) of this section,
       which includes the dollar amount reflecting the aggregate State expenditures by
       the principal agency for authorized activities for the two State fiscal years
       preceding the fiscal year for which the State is applying for the grant. The base
       shall be calculated using Generally Accepted Accounting Principles and the
       composition of the base shall be applied consistently from year to year.

Pursuant to 45 CFR § 96.30(b)(4), grantees are required to submit grant financial information on
Office of Management and Budget (OMB) Standard Form (SF) 269A, Financial Status Report.
Grantees are to provide the requested information within 90 days of the close of the applicable
statutory grant periods. Instructions for this form include the following:




                                                3

       		 Line 10 – Transactions: The purpose of columns I, II, and III is to show the
           effect of this reporting period’s transactions on cumulative financial status.
           The amounts entered in column I will normally be the same as those in
           column III of the previous report in the same funding period. If this is the first
           or only report of the funding period, leave columns I and II blank. If you need
           to adjust amounts entered on previous reports, footnote the column I entry on
           this report and attach an explanation....

       		 Line 10a – Total outlays: Enter total program outlays less any rebates,
           refunds, or other credits. For reports prepared on a cash basis, outlays are the
           sum of actual cash disbursements for direct costs for goods and services, the
           amount of indirect expense charged, the value of in-kind contributions
           applied, and the amount of cash advances and payments made to
           subrecipients. For reports prepared on an accrual basis, outlays are the sum of
           actual cash disbursements for direct charges for goods and services, the
           amount of indirect expense incurred, the value of in-kind contributions
           applied, and the net increase or decrease in the amounts owed by the recipient
           for goods and other property received....

       		 Line 10b – Recipient share of outlays: “Self-explanatory.”

State Agency’s and Department of Health’s Federal Reporting

The Federal Financial Status Reports (SF 269s) that DOH prepared for four grant periods ending
September 30, 2007, were consistent and adequately supported. However, the SF 269 that the
State agency prepared for the grant period ending September 30, 2008, was not accurate or filed
timely. Specifically:

   		 The State agency did not report total outlays on line 10a as required, but instead reported
       only Federal expenditures on that line. As a result, total outlays were understated by
       $15,955,848.

   		 On line 10b, “Recipient share of outlays,” the State agency listed $0, rather than listing
       the amount of State expenditures of $15,955,848, as the SF 269 instructions required.

   		 The SF 269 was signed January 26, 2009, more than 26 days past due and one day before
       the OIG entrance conference for this audit.

These reporting deficiencies primarily resulted from the State agency being new to the
administration of the grant and not having policies and procedure in place governing filing of the
SF 269 for the block grant.

Inconsistent reporting of expenditures makes SAMHSA’s program monitoring difficult and
raises questions regarding how the State agency compiled the underlying numbers.




                                                 4

State agency officials said that they were willing to modify the 2008 SF 269 to be consistent with
the reporting methodology used in previous years and would ensure timely filing in the future.

SUBRECIPIENT MONITORING

Federal and State Requirements

OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
Subpart D, Section 400, states:

       A pass-through entity shall ... [m]onitor the activities of subrecipients as
       necessary to ensure that Federal awards are used for authorized purposes in
       compliance with laws, regulations, and the provisions of contracts or grant
       agreements and that performance goals are achieved.

The Tennessee Department of Finance and Administration oversees statewide compliance with
the requirements of OMB Circular A-133, and has developed a manual detailing requirement of
the subrecipient monitoring process. Tennessee’s Statewide Subrecipient Contract Monitoring
Manual states:

       For the purposes of this plan, “monitoring” is defined as the review process used
       to determine a subrecipient’s compliance with the requirements of a state and/or
       federal program, applicable laws and regulations, and stated results and
       outcomes…. Monitoring should result in the identification of areas of non-
       compliance with the expectation that corrective action will be taken to ensure
       compliance.

The Tennessee Department of Finance and Administration delegated responsibility for
individual, program-specific monitoring, including subrecipient oversight, to the State agency.

State Agency Oversight of Subrecipients

The State agency had procedures in place to ensure that it routinely monitored subrecipients and
it had a sufficient number of qualified personnel to conduct effective oversight of subrecipients.
In addition, State agency personnel used a detailed monitoring guide in performing both program
and fiscal reviews of subrecipients, which was sufficient to determine a subrecipient met grant
requirements.

However, the State agency did not have clearly defined followup or resolution procedures for its
subrecipient monitoring reports. For 60 of the 69 subrecipient monitoring reports reviewed for
fiscal years 2007 and 2008, we found no deficiencies. However, for the remaining 9 reports, we
found that:

   		 4 reports contained findings for which we could find no evidence of any subrecipient
       response,




                                                5

   		 3 reports contained findings that the subrecipients responded to from 242 to 374 days
       after the reports were issued, and

   		 2 reports contained findings that the State agency did not fully resolve because the
       subrecipients did not respond to the State agency’s request for additional information.

The deficiency in following up on subrecipient monitoring reports occurred primarily because
the State agency had not assigned to anyone the responsibility for following up on subrecipient
corrective action plans.

SUBRECIPIENT EXPENDITURE APPROVAL

Federal Requirements

Strong fiscal controls and accounting procedures, including requirements for support
documentation before expenditure approval, minimize the possibility that grant funds will be
used for unallowable activities. Fiscal controls and accounting procedures are governed by
45 CFR § 96.30(a), which states in part, “Fiscal control and accounting procedures must be
sufficient to (a) permit preparation of reports required by the statute authorizing the block grant
and (b) permit the tracing of funds to a level of expenditure adequate to establish that such funds
have not been used in violation of the restrictions and prohibitions of the statute authorizing the
block grant.”

In addition, 45 CFR § 96.135, governing restrictions on expenditures of grant funds, states:

       (a) The State shall not expend the Block Grant on the following activities:

           (1) To provide inpatient hospital services...;

           (2) To make cash payments to intended recipients of health services;

           (3) To purchase or improve land, purchase, construct, or permanently improve
               (other than minor remodeling) any building or other facility, or purchase
               major medical equipment;

           (4) To satisfy any requirement for the expenditure of non-Federal funds as a
               condition for the receipt of Federal funds;

           (5) To provide financial assistance to any entity other than a public or
               nonprofit private entity; or

           (6) To provide individuals with hypodermic needles or syringes so that such
               individuals may use illegal drugs....




                                                 6

State Agency Procedures for Approving Subrecipient Expenditures

The State agency followed established uniform reporting requirements for all subrecipients as
required in Tennessee’s Uniform Reporting Requirements and Cost Allocation Plans for
Subrecipients of Federal and State Grant Monies - Policy Statement 03. This internal policy
defines basic kinds of costs, acceptable costs, and the customary allocation methods to be used.

However, the State agency did not have current, written procedures that described the
subrecipient expenditure review process or that delineated individual roles and responsibilities.
As a result, State agency personnel responsible for processing subrecipient invoices for
reimbursement did not always review the invoices and supporting documents for unallowable
costs, and, in some cases, were not sure of the scope of their responsibilities.

Although we did not identify any unallowable expenses, the State agency could improve its
procedures for reviewing subrecipient invoices by having current written policies and procedures
for reviewing subrecipient invoices.

The State agency noted that this concern would be partially addressed when it implemented a
new statewide accounting system and a new electronic payment system for vendors after our
audit period. Staff were undergoing training, and new procedures were being drafted that would
apply to the new systems.

MAINTENANCE OF EFFORT AND EARMARKING

Federal Requirements

Substance Abuse block grant MOE requirements are contained in 45 CFR part 96:

   		 States are required to maintain an aggregate level of expenditures at a level that is not less
       than the average level of such expenditures maintained by the State for the two year
       period preceding the fiscal year for which the State is applying for the grant. The Block
       Grant shall not be used to supplant State funding of alcohol and other drug prevention
       and treatment programs (45 CFR § 96.134(a)).

   		 States are also required to maintain non-Federal expenditures for tuberculosis (TB)
       services at an amount that is not less than the average level of such expenditures
       maintained by the State for the 2-year period preceding the first fiscal year for which the
       State is applying for the grant. In making this determination States shall establish a
       reasonable funding base for fiscal year 1993 and consistently apply the base from year to
       year (45 CFR § 96.127(c)).

   		 States are also required to maintain non-Federal expenditures for HIV services at an
       amount that is not less than the average level of such expenditures maintained by the
       State for the 2-year period preceding the first fiscal year for which the State is applying
       for the grant. In making this determination States shall establish a reasonable funding




                                                 7

           base for fiscal year 1993 and consistently apply the base from year to year (45 CFR §
           96.128(f)).

       	 States are also required to maintain expenditures at not less than the calculated fiscal year
          1994 base amount for substance abuse treatment services for pregnant women and
          women with dependent children (45 CFR § 96.124(c)(3)).

Substance Abuse block grant earmarking requirements are contained in 45 CFR § 96 and 42
U.S.C. § 300x:

       		 The State agency cannot expend less than 20 percent of the grant for primary prevention
           programs (45 CFR § 96.124(b)(1)).

       	 The State agency cannot expend more than 5 percent of the grant to pay the costs of
          administering the grant (45 CFR § 96.135(b)(1)).

       		 Designated States1 shall expend not less than 2 percent and not more than 5 percent of
           their grants on HIV intervention services (42 U.S.C. § 300x-24(b)(4)(B)).

State Agency Procedures for Monitoring Maintenance of Effort and Earmarking
Requirements

The State agency relied on its budgeting process to ensure that grant MOE and earmarking
requirements were met. Subrecipient contracts were negotiated, and corresponding cost
categories established, so that grant funds would be expended in the coming year in areas
necessary to comply with grant MOE and earmarking requirements. This procedure provided for
compliance with MOE and earmarking requirements on a prospective budgeted basis. In
addition, the State agency generally met its aggregate MOE and earmarking requirements in
fiscal years 2005 – 2008.2

However, the State agency did not have written procedures in place for ensuring that MOE and
earmarking requirements were continuously evaluated throughout the year, in the event that
grant amounts changed during the year or a particular subrecipient in a given earmarking
category missed budgeted expectations. The State agency also had not assigned anyone the
responsibility for ensuring that earmarking and MOE requirements were met.

State agency officials agreed that better written procedures were needed.




1
    Tennessee is a designated State.
2
  The State agency did not have documentation that would have enabled us to verify its 1994 base amount
calculations for substance abuse treatment services for pregnant women, but, nevertheless, it met the MOE
requirement based on the unaudited 1994 figures it provided. In addition, we were unable to determine whether the
State agency met its MOE requirements for HIV because it had not established a base pursuant to 45 CFR §
96.128(f).


                                                        8

RECOMMENDATIONS

We recommend that the State agency:

   		 revise and resubmit its Federal Financial Status Report for the grant period ended 

       September 30, 2008, 


   		 develop and implement improved procedures for preparing its annual Federal Financial
       Status Report accurately and timely,

   		 designate someone as the focal point for ensuring that adequate followup is performed on
       subrecipient responses to monitoring findings and corrective action plans,

   		 develop and implement written policies and procedures that clearly define the roles and
       responsibilities of accounting personnel during the review and approval of subrecipient
       invoices for reimbursement, and

   		 develop and implement written procedures that establish an ongoing monitoring role for
       someone familiar with the grant requirements for MOE and earmarks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described its actions to address the weaknesses that we identified. The State agency’s
comments are included in their entirety as the Appendix.




                                                9

APPENDIX 

                                                                                                                 Page 1 of 4 



                         APPENDIX: STATE AGENCY COMMENTS




                                               STATE OF TENNESSEE
      DEPARTMENT OF MENTAL HEALTH AND DEVELOPMENTAL DISABILITIES
                                         COfIDELL HULL BUILDING, llilRD FLOOR
                                               425 FllI AVENUE, NORlli
                                             NASHVILLE, TENNESSEE 372<13
PHIL BREOESEN                                                                   VIRGINIA TROTTER BETTS, MStt, JD, RN, FAAN
  00_

          J une 09, 2010


          Report Number: A-04-09-03526


          Mr. Peter J. Barbera
          RegionallnspeCior General for Audit Services
          Department of Health and Human Services
          Office of Audit Services, Region IV
          61 Forsyth Street, SW, Suite 3141
          Atlanta, GA 30303

          Dear Mr. Barbera:

          E nclosed is the State of TenTennnessee
                                            essee,, Department of Mental Hea     eallth and Developmental
          D isab ilit
            isabil itiies Mitten commen
                                 commentts in response t o th thee dr
                                                                   draft
                                                                      aft report e ntitle
                                                                                   ntitledd Review of
          Tennessee's Substance Abuse Prevention and Treatment Block Grants for Federal Fiscal
          Years 2003 Through 2008  2008.. Attached araree stateme
                                                          statemen nts of conc
                                                                           concuurrence and correction act
                                                                                                       actiion
          plans fo
                 forr each of you
                               yourr five (5) recommendations.

          You may contac
                      contactt Robert Mart in,, MHDD Fiscal Director, if a dditi
                                      Martin                               dditional
                                                                                 onal information is
          nee<led a t Robert.Martin@tn.gov.

          Sin
           incerely
              cerely,,



          y' ginia Tr
                   Trotte   Betts,, MSN, 10, RN, FAAN
                     otterr Betts




          Cc:      Bob Gnmow, Deputy Commissioner
                   Bruce Emery, Assistant Commissione
                                            Commissionerr
                   Robert Martin
                          Martin,, Director of Fiscal Services
                                   Director




                               TOO (6
                                   (615
                                      15)) 532-6612 (lor persons with heering Im pairments)
                                                                                                     Page 2 of 4 




Department of Mental Health and Developmental Disabilities
       Numberr : A-Q4.()9...{13526
Report Numbe

Summary of Findings:

The S tate agc
           agcnncy's controls ove
                              overr the expenditure of its Substance Ab
                                                                      Abuuse block gran
                                                                                    grantt
funds were not always adequate. Spec Speciifically, we noted fo ur weaknesses in Sta
                                                                                 Statte agency
policies and procedures involving: ( ) Federa1 reponing. (2) Subrecipient Mon Moniitoring
                                                                                    toring,, (3)
Subrecipi
Subrec ipient
          ent expend
              expenditure
                      iture approvw
                            approvw,, and (4) MOE and earmarking.

Management's
Management 's Comments:

Weakness # ) . - Federal Reporti ng

Reconll men
Recon    endation
            dation :

Revise and Re
           Ress ubmit the Federal Financial Status Report/or the grant period ended
September 30
Sept      30,, 2008.

We concu
   concurr. The Financ
                 Financii al Status Report (SF.269) for t he period en
                                                                    ending
                                                                      ding Septembet 30,
2008 will be revised and re--submitted.

Recommend.ation:

Develop and impl
              implee ment procedure
                          procedures/or
                                   s/or preparing its annual Federal Financial Status
Report a cc urately and timel
         ccurately      timely.
                             y.

We concur. The MHDD Ass     Assiistant Director of Fi scal Services and the Program
               Directto r will re
Development Direc              revview all expendit
                                           expenditures
                                                   ures paid duri ng the report
                                                                           reportiing period to
e nsure that both Federal and State expendi
                                      expenditur
                                               tures
                                                  es are inclu
                                                          ncludded on th
                                                                       thee Financial Status
Report (SF-269
        (SF-269). ). The review will be com
                                          completed
                                              pleted in a timel
                                                           timely
                                                                y manner to wlow s uffiufficie
                                                                                            cien
                                                                                               nt
time to prepare
         prepare,, review, and submit the SF-269 by the due da   datte. Prior to submissio
                                                                                 submission   n of
the SF-269
    SF-269,, a flnw review will be pcrfonned to e nsure the accuracy of the report report..

Desig nated staff is attendi
Design                       ng a Grant Trainin
                     attending          Trainingg session that will provide an in-depth
knowledge ofthc use of our new computer software (Gran  (Grantt Module) that will allow us to
run queries and other detailed expenditure reports. These reports wi  willll provide accurate
data that w ill be used in preparing the Financial Status Report accurate
                                                                   accuratelly and timely.

Additional staffwiJl be cross-trained on preparing the Federa1 Financiw Status Report
                                                                                 Report..
The MHDD Assistant Director of Fiscal Services and the Program Development DirectoDirectorr
will monitor preparation of the SF-269 to e nsure its acc
                                                      accuracy
                                                         uracy and timeliness of
submissionn.
submissio
                                                                                                                   Page 3 of 4






Department o f Menlal HeaJth and Developmental Disabi
                                                isabillities
       Numberr : A -Q4-
Report Numbe       -Q4-09"'{)3526
                        09"'{)3526



Weakness #2 - Subrec
              Subreciip ient M onit
                                nitooring

Recom
 ecomme
      me nd
         ndaa tion
              tion::

Designate sosommeo
                eonne as the focal poin
                                   poinlfo
                                       lforr e ns urin
                                                  uringg rhal adequolefollow-up is performed
o n s ubr
      ubrecipienl
         ecipienl responses to monilorin gjind
                                moniloringji  ndings
                                                 ings and corr
                                                             orrective
                                                                ective action plans
                                                                              plans..

W e coconnc ur. The MHDD Pra    Pracc ti
                                      tice
                                         ce Imp
                                             Improvement
                                                 rovement Directo
                                                             Directorr (program) and the Accounting
Manage r (F
Manage           scall Services) have been designated as focal points fo r en
             (Fiisca                                                                enssuring that adequate
follow-up is perfonned on s ubrecipi
                                   ubrecipient ent re  ponsess to moni toring fi ndin
                                                   ressponse                        dings
                                                                                        gs and correcti
                                                                                                 correctivve
action
ac  tion plans
         plans.. When a subrecip
                            subrecipiient is m on oniitored by Fisca
                                                                 Fiscall Serv
                                                                         Serviices or Program Services,
thee age ncy ca
th             cann receive one of three monit monitoring
                                                     oring results. N o findings, no findings with
recommen
recomme     ndations, and findings that result in recommended correct      correctiive action(s). When a
finding is issssued,
                 ued, a writte
                         writtenn corrective a c tion p lan musmustt be received in MHDD
                                                                                       MHDD's    's office
wi thin thirt
          thirty
               y (30) days of the issuance of th    thee report. Th
                                                                  Thisis plan is th     reviie wed and after
                                                                                 thee n rev
a thor
   thoroo ugh eva              thee corrective action p lan is co
               evalluation o f th                                  compl
                                                                      mpleted,
                                                                           eted, a decisio
                                                                                   decision  n is mad
                                                                                                  madee by
MH D D to e ith    er accept or deny th
                ither                     thee proposed plan. A letter is iss  ssued
                                                                                 ued by th thee Sta
                                                                                                Statte agency
to the Executive Di      rector of the s ubrec
                       Director            ubreciipient n otifying th em of acceptance o r d e nial of th   thee
p lan. The implementat
              implementatiion of the plan is then re      rev
                                                            v iewed upo
                                                                     upon n the next scscheduled
                                                                                          heduled visit to
the agency
      agency..

Weakness #] - SUbreci
              SUbrecipienl
                      pienl Expend
                            Expenditure
                                   iture Approval

R eco
  ecomm
      mmee ndali
           ndalioon :

Develop alld implement written procedures thai clearly define th
                                                               thee roles and
responsibilities of accounling personnel dllring the review and appro~'al ofsubrecipienl
invoices fo
         forr r ei
                eimmburse
                      rsement
                          ment..

We co
    concur
       ncur.. Written policies and procedures clear
                                                  clearlly defining ththee roles and
respons ib il ities of accounting persolUlel during the revi
responsi                                                 review
                                                              ew and appro
                                                                        approva  vall of subrecipient
invoices
invoi ces for reimbursement were not in place at th         imee of th
                                                     thee t im      thee fi e ld r e view
                                                                                     view..

Written policies and procedure
                            proceduress hav
                                          havee bee
                                                 beenn completed an
                                                                  and d impl
                                                                         impleem e nted that a dd
                                                                                                ddress
                                                                                                   ress the
weakness as noled in the report. All invoices presented fo r pa           payme
                                                                            yme nt from t he S ubstance
Abuse b loc ock k grant will be reviewed by th    thee Coo
                                                       Coordinato
                                                           rdinatorr of Block GrGrant
                                                                                   ant Serv
                                                                                         Serviices,
Preve
Pre venti
       ntio     Specialiists, and the P rogram Development Director 10 ens
            on Special                                                           ensure
                                                                                      ure that all
expendilures
expe  ndilures are fo r all    owable
                           allow  able costs and do not exceed budget autho  authoriri ty, Upon
compl
co mpleetion of th       reviee w by th
                    thee revi        thee Pro
                                          Program
                                               gram Staff, the inv
                                                               invo  icess will be forwarded to the
                                                                   o ice
Fiscal SeServi
             rvi ces section for fwther rev reviiew by the Account
                                                            Accountin  ingg Manage
                                                                            Managerr and t he Accoun
                                                                                                 Accountant
                                                                                                          tant
lIJ pri
    prioo r to further p rocessing o f th thee payment,
                                                                                                      Page 4 of 4






Department of Mental Health and Developmental Disabilities
Report Number: A·04-09-03526



Weakness #4 - MOE and Earmarking

R ecom
  ecommend
       mend a tion :

Del'e/op and implement written procedllres that es
                                                esttablish an ongoing monitoring roleJor
so meone /amiliar with the grant requirement
someone                          requirements/or
                                             s/or MOE and earmarking
                                                             earmarking..

We ooncur. Written procedure
                        proceduress have been established by the Program Development
Director for the SA
                 SAPT PT block gran
                                 grantt that will ensure ongoing monitoring o fthe MOE and
eannarking
ea nnarking as defined in the grant requirements. A report is be     bein
                                                                        ingg created within the new
software that divides out expenditures by program code. These reports will furnish the
director with the data needed to monitor the MOE and earmarking on a monthly bas          basiis.
Thiss process will e ns ure that the State agency will meet the grant requirements by
Thi
allowing them to mak
                   makee changes more timely in the ev    event
                                                             ent that grant amounts change
during the year or if a particular su
                                    subrec
                                        breciipient in a given earmarking category missed
budgeted expectations
